App. 2
The Clerk shall be directed to mail a copy of this
order to the defendant and to the Commonwealth’s At­
torney.
ENTER:
/s/ Charles L, Ricketts III. JUDGE
12/23/15

, DATE

App. 3
APPENDIX B
VIRGINIA:
In the Court ofAppeals of Virginia on Thurs­
day the 12th day of May, 2016.
Dan Haendel,
against

Appellant,

Record No. 0095-16-3
Circuit Court Nos. CR1400014-03 and
CR14000014-04

Commonwealth of Virginia,

Appellee.

From the Circuit Court of the City of Staunton
On December 30, 2014, upon appellant’s guilty
pleas pursuant to North Carolina v. Alford. 400 U.S. 27
(1972), the trial court sentenced appellant to a total
of twenty years with thirteen years suspended for at­
tempting to take indecent liberties with a minor and
using a communications system to facilitate a sexual
offense with a minor. On September 21, 2015, appel­
lant filed a “Motion for Reconsideration and Motion to
Suppress Evidence” in the trial court. Appellant al­
leged that the electronic communications upon which
his convictions were based were intercepted unlaw­
fully and should have been suppressed. In a subse­
quent pleading, appellant maintained that as a result
of the illegally obtained evidence the judgment
against him was void an initio. By order entered De­
cember 23,2015, the trial court denied appellant’s mo­
tions, finding that it “lack[ed] jurisdiction to suspend
or otherwise modify [appellant’s] sentence pursuant to
Virginia Code Section 19.2-303 and Rule 1:1 of the

App. 4
Rules of the Supreme Court of Virginia.” Appellant ap­
peals this ruling.1
The Court of Appeals of Virginia
is a court of limited jurisdiction. West v. Com­
monwealth. 18 Va. App. 456, 457, 445 S.E.2d
159, 159 (1994), appeal dismissed. 249 Va.
241, 455 S.E.2d 15 (1995). Unless a statute
confers jurisdiction in this Court, we are with­
out power to review an appeal. Polumbo v. Polumbo. 13 Va. App. 306, 307, 411 S.E.2d 229,
229 (1991).
Canova Elec. Contracting. Inc, v. LMI Ins. Co.. 22 Va.
App. 595, 599, 471 S.E.2d 827, 829 (1996).
This Court’s appellate jurisdiction in criminal
matters is defined by Code § 17.1-406(A), which pro­
vides that “[a]ny aggrieved party may present a peti­
tion for appeal to the Court of Appeals from . . . any
final conviction in a circuit court of a traffic infraction
or a crime, except where a sentence of death has been
imposed. ...” “[T]his statutory language limits the
Court of Appeals’ appellate criminal jurisdiction ‘to ap­
peals from final criminal convictions and from action
1 Appellant’s notice of appeal, filed on January 20, 2016, also
states appellant is appealing from the trial court’s December 30,
2014 sentencing order. Rule 5A:6 provides that “[n]o appeal shall
be allowed unless, within 30 days after entry of final judg­
ment. ...” Appellant did not timely note an appeal from the sen­
tencing order. The failure to file a notice of appeal in accordance
with Rule 5A:6 is a jurisdictional defect. See Johnson v. Common­
wealth. 1 Va. App. 510, 512, 339 S.E.2d 919, 920 (1986). Thus,
any direct appeal from the December 30, 2014 order is dismissed.

App. 5
on motions filed a disposed of while the trial court re­
tains jurisdiction over the case.’” Green v. Common­
wealth. 263 Va. 191, 194, 557 S.E.2d 230, 232 (2002)
(quoting Commonwealth v. Southerly. 262 Va. 294,299,
551 S.E.2d 650, 653 (2001)).
In Southerly, the Supreme Court of Virginia held:
“[I]t is the nature of the method employed to
seek relief from a criminal conviction and the
circumstances under which the method is em­
ployed that determine whether an appeal is
civil or criminal in nature. If the method con­
sists of an appeal from the conviction itself or
from action on motions filed and disposed of
while the trial court retains jurisdiction over
the case, the appeal is criminal in nature. But
when, as here, the relief requested by way of
a motion to vacate is a declaration that the
trial court lacked the jurisdiction to take the
action sought to be vacated and the motion is
not filed until after the conviction has become
final, then the motion and the appeal from the
trial court’s action thereon are both civil in na­
ture.”
Locklear v. Commonwealth. 46 Va. App. 488, 493, 618
S.E.2d 361, 364 (2005) (quoting Southerly. 262 Va. at
299, 551 S.E.2d at 652.
Appellant’s pleading asserting that the judgment
was void ab initio was filed long after his criminal con­
victions became final, see Rule 1:1, and his appeal
therefrom is civil in nature. See Southerly. 262 Va. at
299, 551 S.E.2d 653. Accordingly, the appropriate

App. 6
venue for this appeal is the Supreme Court of Virginia
rather than this Court.
Code § 8.01-677.1 provides:
Notwithstanding any other provisions of this
Code, no appeal which was otherwise properly
and timely filed shall be dismissed for want of
jurisdiction solely because it was filed in ei­
ther the Supreme Court or the Court of Ap­
peals and the appellate court in which it was
filed thereafter rules that it should have been
filed in the other court. In such event, the ap­
pellate court so ruling shall transfer the ap­
peal to the appellate court having appropriate
jurisdiction for further proceedings in accord­
ance with the rules of the latter court.
It appears that appellant’s appeal from the trial
court’s December 23, 2015 order was “otherwise
properly and timely filed” in this Court. Accordingly,
we transfer the case to the Supreme Court of Virginia.
A Copy,
Teste:
Cynthia L. McCoy, Clerk
By: /s/ A. John Vollino
Deputy Clerk

App. 7
APPENDIX C
VIRGINIA:
In the Supreme Court of Virginia held at the
Supreme Court Building in the City of Richmond
on Friday the 3rd day of February, 2017.
Dan Haendel,
against

Appellant,

Record No. 160752
Circuit Court Nos. CR14000014-03 and -04

Commonwealth of Virginia,

Appellee.

From the Circuit Court of the City of Staunton
Upon review of the record in this case and consid­
eration of the argument submitted in support of and in
opposition to the granting of an appeal, the Court is of
the opinion there is no reversible error in the judgment
complained of. Accordingly, the Court refuses the peti­
tion for appeal.
A Copy,
Teste:
Patricia L. Harrington, Clerk
By: /s/ Leslie Smith
Deputy Clerk

App. 8
APPENDIX D
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF VIRGINIA
ROANOKE DIVISION
DAN HAENDEL,
Plaintiff,
v.
ANNA REED, et al..
Defendants.

) Civil Action No.
) 7:17-cv-00119
)
)
)

MEMORANDUM
OPINION

) By: Hon. Jackson L. Kiser
Senior United States
)
District
Judge
)
)

(Filed Feb. 13, 2018)

Dan Haendel, who is member of the District of
Columbia Bar but a Virginia prisoner proceeding pro
se, filed a verified complaint pursuant to 42 U.S.C.
§ 1983.1 Plaintiff names as defendants: Anna Reed, an
Assistant Commonwealth’s Attorney for the City of
Staunton (“Staunton”); Raymond C. Robertson, the
Commonwealth’s Attorney for Staunton; Jim Wilson,
1 Plaintiff is listed on the D.C. Bar’s website as an “active
attorney” in “good standing” despite his felony convictions. See In
Re Katrina Canal Breaches Consol. Litig.. 533 F. Supp. 2d 615,
631-33 & nn.14-15 (E.D. La. 2008) (collecting cases indicating
that federal courts may take judicial notice of governmental web­
sites); Williams v. Long. 585 F. Supp. 2d 679, 686-88 & n.4 (D.
Md. 2008) (collecting cases indicating that postings on govern­
ment websites are inherently authentic or self-authenticating). I
decline to extend the liberal construction standard to an attorney.
See Haines v. Kerner. 404 U.S. 519, 521 (1972) (observing that a
court should hold pro se complaints to “less stringent standards
than formal pleadings drafted by lawyers”) (emphasis added).

App. 9
the Chief of Police for Staunton; BB Cully, a police of­
ficer for Staunton; Mark R. Herring, the Attorney
General of Virginia; and Harold W. Clarke, the Director
of the Virginia Department of Corrections. Plaintiff
argues that he is being falsely incarcerated in violation
of due process because his convictions for electronic
communications with Officer Cully were used unlaw­
fully during his state criminal proceedings. Defend­
ants filed motions to dismiss, Plaintiff responded and
filed a motion to amend, and most defendants renewed
their motions to dismiss. After reviewing Plaintiff’s
submissions, I determine that Heck v. Humphrey. 512
U.S. 477, 478 (1994), bars the action, as amended, and
dismiss it without prejudice as frivolous.
I.
A.
Plaintiff was arrested on May 13, 2014, as a con­
sequence of his communications of a sexual nature
with Officer Cully, who had pretended to be a minor.
Plaintiff was charged with attempting to take indecent
liberties with a minor, in violation of Virginia Code
§§ 18.2-370 and 18.2-26, and with using a communica­
tions system to facilitate a sexual offence with a mi­
nor, in violation of Virginia Code § 18.2-374.3. Plaintiff
pleaded no contest, and on December 30, 2014, he
was sentenced by the Circuit Court of Staunton (“Cir­
cuit Court”) to an active term of seven years’ incarcer­
ation.

App. 10
Nearly a year later in September 2015, Plaintiff
filed with the Circuit Court a Motion for Reconsidera­
tion and Motion to Suppress Evidence. Plaintiff argued
that the electronic communications with Officer Cully
were unlawfully intercepted and should have been
suppressed. The Circuit Court denied Motion for Re­
consideration and Motion to Suppress Evidence, and
Plaintiff appealed unsuccessfully to the Court of Ap­
peals of Virginia and the Supreme Court of Virginia.
In January 2016, Plaintiff commenced a civil ac­
tion in state court by filing a pro se “Motion of Judg­
ment” against Reed, Officer Cully, Staunton, the
Staunton Police Department, the Office of the Com­
monwealth’s Attorney for Staunton, and the Common­
wealth of Virginia. Plaintiff alleged that these
defendants violated Virginia Code § 19.2-69 jointly and
severally, and are liable for damages.2 In a subsequent
filing titled, “Motion for Judgment - Amended,” Plain­
tiff argued that Reed and Officer Cully violated the
provisions governing the use and disclosure of elec­
tronic conversations because Officer Cully posed as an
underage minor without court approval. Plaintiff also
argued that Officer Cully could not have “intercepted”
the electronic conversations because the officer was a
party to the conversation. The Circuit Court ultimately
denied Plaintiff leave to file the “Motion for Judgment
- Amended” and dismissed the case with prejudice on
2 Virginia Code § 19.2-69 permits a civil action for damages
in certain circumstances against “any person who intercepts, dis­
closes or uses, or procures any other person to intercept, disclose
or use [wire, electronic or oral] communications.”

App. 11
July 11, 2016. Plaintiff appealed unsuccessfully to the
Supreme Court of Virginia.
B.
Plaintiff commenced this action no earlier than
March 24, 2017, alleging, inter alia, constitutional due
process violations by “Virginia Officials by failure to
follow plain language of Virginia Statute as void ab in­
itio resulting in false arrest and false imprisonment.”
Like in the “Motion for Judgement - Amended,” Plain­
tiff asserts that Reed and Officer Cully violated the law
by using the incriminating electronic communications
in the criminal proceedings against Plaintiff. Plaintiff
maintains these defendants’ acts tainted his criminal
case and render his plea and convictions invalid and
void ab initio.3
In response to the motions to dismiss filed by
Robertson, Reed, and Williams, Plaintiff filed a “motion
to amend and motion in opposition to defendant’s [sic]
motion to dismiss.”4 Plaintiff explains that the motion
is to clarify any misunderstandings about this action
and to modify parts of the complaint.

3 Plaintiff acknowledges that, despite his prior challenges to
the criminal judgment in state courts, he has not yet sought a writ
of habeas corpus from Virginia courts.
4 It was also captioned as a “verified complaint,” but it is
clear from the document that it is not intended to replace the orig­
inal complaint. See Fed. R. Civ. P. 8(e) (“Pleadings must be con­
strued so as to do justice.”).

App. 12
Initially, Plaintiff clarifies that he sues defendants
in both their individual and official capacities. None­
theless, Plaintiff amends the relief sought to omit “re­
lief in the - -form, of monetary- damages” and an—injunction that would compel a speedier release from
incarceration.5 Plaintiff seeks only declaratory relief
that recognizes:
Virginia courts lack jurisdiction as void from
the inception of the “sting” operation as con­
trary to the plain and specific language of the
Virginia statutes in violation of civil rights
under the Virginia and U.S. Constitutions.
These officials formulated the “sting” opera­
tion knowing or having reason to know the
limitations of VA Code [§] 19.2-62(B)(2) ex­
emption for the “interception” by a party to
the communication that such communica­
tions, even if “permissible,” are not “admissi­
ble” in Virginia legal proceedings, absent
judicial authorization primarily because the
Virginia statute, in contrast to the federal
statute, makes it a felony violation to use
5 I decline to construe the action as seeking habeas relief for
several reasons. Plaintiff is, inexplicably, still a licensed attorney
in good standing with the D.C. Bar, knows of habeas relief, and
has not yet sought habeas relief. More notable, however, is the
fact Plaintiff explicitly disclaims seeking habeas relief in this ac­
tion. See, e.g.. Castro v. United States. 540 U.S. 375, 386 (2003)
(“Our adversary system is designed around the premise that the
parties know what is best for them, and are responsible for ad­
vancing the facts and arguments entitling them to relief. Rechar­
acterization is unlike ‘liberal construction,’ in that it requires a
court deliberately to override the pro se litigant’s choice of proce­
dural vehicle for his claim.”) (Scalia, J., concurring).

App. 13
and/or disclose the contents of an interception
if the person so doing knows or has reason to
know that the contents are from an intercept
without requiring, as does the federal statute,
that the intercept be in violation of the stat­
ute.
Finding it appropriate to do so in accordance with
Federal Rule of Civil Procedure 15 and Foman v. Davis.
371 U.S. 178, 182 (1962), the motion to amend is
granted to the extent it clarifies the verified complaint
as intended, and the relief is limited to declaratory re­
lief. Cf Kentucky v. Graham. 473 U.S. 159, 167 n.18
(1985) (noting a state’s immunity can be overcome by
naming state officials as defendants in official-capacity
actions for injunctive or declaratory relief); Supreme
Court of Virginia v. Consumers Union of U.S.. Inc.. 446
U.S. 719, 736-38 (1980) (disclaiming absolute immun­
ity as a defense to actions for declaratory relief).
II.
Heck v. Humphrey. 512 U.S. 477, 486-87 (1994),
bars this action.6 See Wilkinson v. Dotson. 544 U.S. 74,
81-82 (2005) (recognizing § 1983 claims for declaratory
relief are barred under Heck if success of the claims
would necessarily demonstrate the invalidity of the
prisoner’s confinement without favorable termination).
Plaintiff repeatedly challenges the legality of the
6 The parties filed dispositive motions raising various chal­
lenges to the complaint, as amended. I find it unnecessary to ad­
dress those other arguments in light of the broad application of
Heck.

App. 14
investigation and criminal judgment for which [sic] is
presently incarcerated. There is no avenue to both is­
sue the requested declaration yet not impugn the le­
gality of Plaintiff’s convictions and incarceration.
Plaintiff would be unlawfully incarcerated if, ar­
guendo. Virginia courts lacked jurisdiction. Also, the
chat transcript - the only specific evidence establish­
ing his guilt - would have been suppressed had the
prosecutors and police violated due process and com­
mitted felonies to secure his convictions. Plaintiff ar­
gues that his convictions would not be impugned by
issuing the declaration because his Alford plea and
“other evidence” the police “may possess” could again
result in his arrest and incarceration. However, a new
plea hearing, the production of unknown “other evi­
dence,” re-arrest, and re-incarceration all presuppose
that the current judgment is invalid and that the crim­
inal process begins anew.
Plaintiff cannot use § 1983 to obtain declaratory
relief that necessarily demonstrates the invalidity of
his confinement, and he cannot prove favorable termi­
nation because he is still convicted and incarcerated
for the crimes for which he seeks declaratory relief.
Accordingly, the action is dismissed without prejudice
as frivolous.7

7 Plaintiff’s pursuit of this action despite an obvious lack of
favorable termination constitutes the frivolous pursuit of an in­
disputably meritless legal theory. See, e.g.. Neitzke v. Williams.
490 U.S. 319, 327 (1989); see also Russell v. Guilford Ctv. Munic­
ipality. 599 F. App’x 65, 65 (4th Cir. 2015) (per curiam) (finding
Heck barred a § 1983 complaint and upholding dismissal as

App. 15
III.
For the foregoing reasons, I grant Plaintiff’s mo­
tion to amend; grant Defendants’ motions to dismiss as
to the application of Heck v. Humphrey. 512 U.S. 477,
478 (1994), and deny them in part as moot as to other
arguments; and dismiss the action without prejudice
as frivolous. Because it appears the D.C. Bar has not
yet been informed of Plaintiff’s convictions, the Clerk
shall forward a certified copy of this Memorandum
Opinion and accompanying Order to the Office of Dis­
ciplinary Counsel for the District of Columbia Court of
Appeals.
ENTER: This 13th day of February, 2018.
/s/ Jackson L. Kiser
Senior United States District Judge

frivolous pursuant to 28 U.S.C. § 1915A(b)(l)); Wilson v. Sheriff
Den’t. No. 7:10-cv-00363, 2010 U.S. Dist. LEXIS 85193, at *5,
2010 WL 3292654, at *2 (W.D. Va. Aug. 19, 2010) (dismissing
without prejudice as frivolous under Heck (citing Omar v.
Chasanow. 318 F. App’x 188, 189 (4th Cir. 2009) (modifying dis­
trict court’s dismissal with prejudice under Heck to reflect that
dismissal is without prejudice to plaintiff refiling upon favorable
termination of conviction) (per curiam))).

App. 16
APPENDIX E
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF VIRGINIA
ROANOKE DIVISION
DAN HAENDEL,
Petitioner,
v.
IVAN GILMORE,
Respondent.

) Civil Case No. 7:18cv00317
)
)
)

MEMORANDUM
OPINION

) By: Michael F. Urbanski
Chief United States
)
District Judge
)
)
)

(Filed Mar. 12, 2019)

Dan Haendel, a Virginia inmate proceeding pro
se,1 filed a petition for a writ of habeas corpus pursuant
to 28 U.S.C. § 2254 to challenge his criminal judgment
entered by the Circuit Court for the City of Staunton.
This matter is before the court on respondent’s motion
to dismiss. After reviewing the record, the court grants
the motion and dismisses the petition as time-barred.2
1 The court notes that Haendel was- an attorney admitted to
practice law in the District of Columbia from December 28, 1979
until his license was suspended on June 1, 2018, and he was dis­
barred on January 3, 2019. See In re Haendel. 199 A.3d 625, No.
18-BG-522, 2019 D.C. App. LEXIS 2, at *2, 2019 WL 81111, at *1
(D.C. Jan. 3, 2019).
2 Since filing his petition, Haendel has been released from
incarceration. See ECF No. 19. Because of his release, Haendel
seeks to amend his petition to change the named respondent to
the “Virginia Department of Corrections Probation and Parole
District 29.” See ECF No. 18. However, because the court is

App. 17
I.
On December 30, 2014, after an Alford plea,3 the
Circuit Court for the City of Staunton convicted
Haendel of attempting to take indecent liberties with
a minor, in violation of Virginia Code §§ 18.2-370 and
18.2-26, and using a communications system to facili­
tate a sexual offence with a minor, in violation of Vir­
ginia Code § 18.2-374.3. The court sentenced him to a
total term of twenty years’ incarceration, with thirteen
years suspended.
Nine months later, on September 30, 2015,
Haendel filed a “Motion for Reconsideration and Mo­
tion to Suppress Evidence” with the Circuit Court for
the City of Staunton. Haendel argued that the elec­
tronic communications with Officer Cully, an Officer of
the Staunton Police Department who posed as a minor
in communicating with Haendel, were unlawfully in­
tercepted and should have been suppressed. The Cir­
cuit Court denied Haendel’s motion on December 23,
2015, finding that it lacked jurisdiction to suspend or
dismissing his petition, his motion to amend is moot and, thus,
will be denied. The court notes that a petitioner’s release from
prison does not moot his petition simply because he is no longer
“in custody,” provided there is still some “collateral consequence”
of the conviction. See Spencer v. Kemna. 523 U.S. 1, 14-16 (1998).
A criminal conviction carries a presumption of collateral conse­
quences, see id. at 8, and respondent has offered nothing to rebut
this presumption.
3 North Carolina v. Alford. 400 U.S. 25 (1970) “allows a de­
fendant to plead guilty without admitting the commission of the
acts underlying the offense and without incurring civil liability.”
Jones v. United States. 401 A.2d 473, 475 n.l (D.C. 1979).

App. 18
otherwise modify Haendel’s sentence pursuant to Vir­
ginia Code § 19.2-303 and Rule 1:1 of the Rules of the
Supreme Court of Virginia. Haendel appealed and the
Supreme Court of Virginia refused the appeal on Feb­
ruary 3,2017. The Supreme Court of the United States
denied his petition for writ of certiorari on October 2,
2017. Haendel filed the instant federal habeas petition
on June 29, 2018. See R. Gov. § 2254 Cases 3(d) (de­
scribing the prison-mailbox rule).
II.
Under the Antiterrorism and Effective Death Pen­
alty Act of 1996, a petitioner has a one-year period of
limitation to file a federal habeas corpus petition. This
statute of limitations runs from the latest of:
(A) the date on which the judgment became
final by the conclusion of direct review or the
expiration of the time for seeking such review;
(B) the date on which the impediment to fil­
ing an application created by State action in
violation of the Constitution or laws of the
United States is removed, if the applicant was
prevented from filing by such State action;
(C) the date on which the constitutional
right asserted was initially recognized by the
Supreme Court, if the right has been newly
recognized by the Supreme Court and made
retroactively applicable to cases on collateral
review; or

App. 19
(D) the date on which the factual predicate
of the claim or claims presented could have
been discovered through the exercise of due
diligence.
28 U.S.C. § 2244(d)(1). Here, Haendel alleges nothing
to support application of § 2244(d)(l)(B)-(D). Under
§ 2244(d)(1)(A), Haendel’s conviction became final on
January 29, 2015, when his time to file a direct ap­
peal to Court of Appeals of Virginia expired, see Va.
Code § 8.01-675.3 and Va. S. Ct. R. 5A:6, and the stat­
ute of limitations began to run on that date. Therefore,
Haendel had until January 29, 2016, to file a timely
federal habeas petition.
Section 2244(d)(2) tolls the federal limitation pe­
riod during the time in which “a properly filed applica­
tion for State post-conviction or other collateral review
. . . is pending.” 28 U.S.C. § 2244(d)(2). An application
for post-conviction review or other state collateral pro­
ceeding is “properly filed” when its delivery and ac­
ceptance are in compliance with the applicable laws
and rules governing filings.” Artuz v. Bennett. 531 U.S.
4, 8 (2000); see also Pace v. DiGuglielmo. 544 U.S. 408,
414 (2005). Haendel’s September 30, 2015 motion in
the circuit court, collaterally attacking his conviction,
and the subsequent appeals of the denial of that mo­
tion, did not toll the statute of limitations because the
motion was not “properly filed.”4 See Hall v. Johnson.
4 Moreover, even if the court tolled the statute of limitations
during the pendency of Haendel’s motion and subsequent ap­
peals, his federal habeas petition would nevertheless be untimely.
A total of 244 days passed from the time his conviction became

App. 20
332 F. Supp. 2d 904, 909 (E.D. Va. 2004) (finding a
collateral attack denied under Virginia Supreme
Court Rule 1:1 was not properly filed and, thus, did not
toll the statute of limitations period). Accordingly,
Haendel’s petition is time-barred unless he demon­
strates that the court should equitably toll the oneyear statute of limitations, Rouse v. Lee. 339 F.3d. 238,
246 (4th Cir. 2003), or that he is actually innocent of
his convictions, McQuiggin v. Perkins. 569 U.S. 383,386
(2013).
A district court may apply equitable tolling only
in “those rare instances where—due to circumstances
external to the party’s own conduct—it would be un­
conscionable to enforce the limitation period against
the party and gross injustice would result.” Rouse. 339
F.3d. at 246 (citing Harris v. Hutchinson. 209 F.3d 325,
330 (4th Cir. 2000)). The petitioner must demonstrate

final on January 29, 2015 to the time he filed his motion in the
Circuit Court on September 30, 2015. The Supreme Court of Vir­
ginia denied his appeal of his collateral attack on February 3,
2017. Haendel’s petition for writ of certiorari to the Supreme
Court of the United States did not toll the statute of limitations.
See Lawrence v. Florida. 549 U.S. 327, 334-36 (2007) (holding
that a petitioner is not entitled to tolling to file a petition for writ
of certiorari to the Supreme Court of the United States following
state collateral review, even if the petition for writ of certiorari is
actually filed). Therefore, the limitations period ran for another
511 days before he filed his federal habeas petition on June 29,
2018. Accordingly, even if the court tolled the limitations period
during the pendency of his state collateral attacks, a total of 755
days passed between the time his conviction became final and
time he filed his federal habeas petition and, thus, his petition
would be untimely filed.

App. 21
that some action by the respondent or “some other
extraordinary circumstance beyond his control” pre­
vented him from complying with the statutory time
limit, despite his exercise of “reasonable diligence in
investigating and bringing the claims.” Harris. 209
F.3d at 330 (citing Miller v. N.J. State Dep’t of Cons..
145 F.3d 616, 618 (3d Cir. 1998)). An inmate asserting
equitable tolling “ ‘bears a. strong burden to show spe­
cific facts’ ” that demonstrate he fulfills both elements
of the test. Yang v. Archuleta. 525 F.3d 925, 928 (10th
Cir. 2008) (quoting Brown v. Barrow. 512 F.3d 1304,
1307 (11th Cir. 2008)). Generally, the petitioner is
obliged to specify “ ‘the steps he took to diligently pur­
sue his federal claims.’ ” Id. at 930 (quoting Miller v.
Man. 141 F.3d 976, 978 (10th Cir.1998)). Haendel has
presented no specific evidence to suggest that he was
prevented from complying with the statutory time
limit. Accordingly, the court finds no basis to equitably
toll the limitations period.
Finally, a gateway claim of actual innocence re­
quires a petitioner to produce new, reliable evidence
sufficient to persuade the court that no reasonable ju­
ror would have found the petitioner guilty beyond a
reasonable doubt to overcome a time-bar restriction.
McQuiggin. 569 U.S. at 386 (citing Schlun v. Delo. 513
U.S. 298, 329 (1995)). Haendel has not presented any
new evidence in his federal habeas petition and, thus,
has not plausibly alleged a basis for excusing his un­
timely filing. Accordingly, the court concludes that
Haendel’s petition is time-barred.

App. 22
III.
Based on the foregoing, the court will grant re­
spondent’s motion to dismiss.
ENTER: This 11th day of March, 2019.
/s/ Michael F. Urbanski
Chief United States District Judge

App. 23
APPENDIX F
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF VIRGINIA
ROANOKE DIVISION
DAN HAENDEL,
Plaintiff,

) Civil Action No.
) 7:17-cv-00119

v.

) MEMORANDUM
) OPINION
> By:
)
Hon. Jackson L. Kiser
Senior United States
)
District Judge
)

ANNA REED, et al..
Defendants.

) (Filed Sep. 10, 2018)
Presently before me is a motion for reconsidera­
tion filed by pro se, incarcerated plaintiff Dan Haendel,
who is a member of the District of Columbia Bar.1
Plaintiff had alleged in this action pursuant to 42
U.S.C. § 1983 that “Virginia Officials!’] . . . failure to
follow plain language of Virginia Statute as void ab in­
itio result [ed] in false arrest and false imprisonment.”
The alleged false imprisonment manifests as Plain­
tiff’s current term of imprisonment after he pleaded no
contest, pursuant to North Carolina v. Alford. 400 U.S.
25, 26 (1970), for attempting to take indecent liberties
1 I decline to extend the liberal construction standard to an
attorney. See Haines v. Kerner. 404 U.S. 519, 521 (1972) (observ­
ing that a court should hold pro se complaints to “less stringent
standards than formal pleadings drafted by lawyers” (emphasis
added)).

App. 24
with a minor, in violation of Virginia Code § 18.2-370,
and with using a communications system to facilitate
a sexual offence with a minor, in violation of Virginia
Code § 18.2-374.3.
I had dismissed the complaint, as amended, find­
ing it barred by Heck v. Humphrey. 512 U.S. 477, 478
(1994). Plaintiff had argued that the investigative
techniques used to collect the evidence of his crimes
rendered his plea and convictions invalid, and the re­
lief hie had sought was a declaration that, inter alia.
Virginia courts lacked jurisdiction to convict and sen­
tence him. Plaintiff argued that:
Virginia courts lack jurisdiction as void from
the inception of the “sting” operation as con­
trary to the plain and specific language of the
Virginia statutes in violation of civil rights
under the Virginia and U.S. Constitutions.
These officials formulated the “sting” opera­
tion knowing or having reason to know the
limitations of VA Code [§] 19.2-62(B)(2) ex­
emption for the “interception” by a party to
the communication that such communica­
tions, even if “permissible,” are not “admissi­
ble” in Virginia legal proceedings, absent
judicial authorization primarily because the
Virginia statute, in contrast to the federal
statute, makes it a felony violation to use and/
or disclose the contents of an interception if
the person so doing knows or has reason to
know that the contents are from an intercept
without requiring, as does the federal statute,
that the intercept be in violation of the stat­
ute.

App. 25
In the motion for reconsideration, Plaintiff cites
Covev v. Assessor of Ohio County. 777 F.3d 186, 189
(4th Cir. 2015), to argue that Heck does not apply. In
Covev. the Court of Appeals held that “a civil-rights
claim does not necessarily imply the invalidity of a con­
viction or sentence if (1) the conviction derives from a
guilty plea rather than a verdict obtained with unlaw­
fully obtained evidence and (2) the plaintiff does not
plead facts inconsistent with guilt.” Covey, supra at
197.
Convey [sic] is not applicable here because Plain­
tiff entered an Alford plea, not a guilty plea. “Ordinar­
ily, a judgment of conviction resting on a plea of guilty
is justified by the defendant’s admission that he com­
mitted the crime charged against him ...” Alford. 400
U.S. at 32. Thus, a guilty plea would have substituted
as the basis for the convictions versus the underlying
evidence used to support the arrest, charges, and con­
victions. In contrast, Virginia courts recognize that Al­
ford pleas allow “criminal defendants who wish to
avoid the consequences of a trial to plead guilty by con­
ceding that the evidence is sufficient to convict them,
while maintaining that they did not participate in the
acts constituting the crimes.” Carroll v. Common­
wealth. 280 Va. 641,644-45, 701 S.E.2d 414,415 (2010)
(emphasis added). “By these representations in his
criminal prosecution, [a defendant] assumed a position
of law, not a position of fact. He conceded only that the
evidence was sufficient to convict him of the offenses
and did not admit as a factual matter that he had

App. 26
participated in the acts constituting the crimes.” Par­
son v. Carroll. 272 Va. 560, 566, 636 S.E.2d 452, 455
(2006).
Plaintiff acknowledged in his written plea agree­
ment that his “plea does not constitute an admission of
guilt.”2 Instead of admitting guilt, Plaintiff “voluntar­
ily, knowingly, and understanding^ consent [ed] to the
imposition of a prison sentence even if he [wa]s unwill­
ing or unable to admit his participation in the acts
constituting the crime.” Alford. 400 U.S. at 37. Thus,
Plaintiff “preferred the [factual] dispute ... be settled
by the judge in the context of a[n] [Alfordl plea pro­
ceeding rather than by a formal trial.” Id- at 32. To that
end, the state court relied on evidence, now challenged
as unlawfully procured and admitted, as the sole basis
to support the convictions.3
“[T]he Constitution does not bar imposition of a
prison sentence upon an accused who is unwilling
2 The state court record has been loaned to this court during
the pendency of Plaintiff’s petition for a writ of habeas corpus
under 28 U.S.C. § 2254 in Haendel v. Gilmore. No. 7:18cv317.
3 Transcripts were not prepared other than from the bond
hearing where the parties discussed Plaintiff’s potential access to
computers and children at the bed and breakfast he owns in Middleburg, Virginia, and at his job. Although no transcript recites
the facts supporting the convictions, the convictions rested on the
chat logs that were entered into the record during the plea hear­
ing. The chat logs reveal Plaintiff’s intended grooming of a thir­
teen year child via computer and his attempted indecent liberties
with a child. See Va. Code § 18.2-370(A)(4) (prohibiting, inter alia.
the proposal of doing an act of sexual intercourse, anal inter­
course, cunnilingus, fellatio, or anilingus to a child); § 18.2374.3(C) (prohibiting the use of a computer for such proposals).

App. 27
expressly to admit his guilt. . . .” Id- at 36. But, Heck
does bar Plaintiff’s attempt to treat a “no contest” plea
in state criminal proceedings as a guilty plea in federal
civil proceedings. Accordingly, the motion for reconsid­
eration is denied.
ENTER: This 10th day of September, 2018.
s/Jackson L. Kiser
Senior United States
District Judge

App. 28
APPENDIX G
FILED: April 15, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-6496
(7:18-cv-00317-MFU-RSB)
DAN HAENDEL
Petitioner - Appellant
v.
IVAN GILMORE, Warden,
Coffeewood Correctional Center
Respondent - Appellee
This case has been opened on appeal.
Originating Court

United States District
Court for the Western
District of Virginia at Roa­
noke
Originating Case Number 7:18-cv-00317-MFU-RSB
Date notice of appeal filed 04/12/2019
in originating court:
Appellant(s)
Dan Haendel
Appellate Case Number 19-6496
Case Manager
Cathy Tyree Herb
804-916-2724

App. 29
APPENDIX H
FILED: May 14, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 18-7216
(7:17-cv-00119-JLK-RSB)
DAN HAENDEL
Plaintiff - Appellant
v.
ANNA REED, Assistant Commonwealth Attorney
City of Staunton; BB CULLY, Police Officer,
City of Staunton; RAYMOND C. ROBERTSON,
Commonwealth Attorney, City of Staunton;
JIM WILLIAMS, Chief of Police, City of Staunton;
MARK R. HERRING, Attorney General
Commonwealth of Virginia; HOWARD W. CLARKE,
Director Virginia Department of Corrections
Defendants - Appellees
MANDATE
The judgment of this court, entered 03/26/2019,
takes effect today.

App. 30
This constitutes the formal mandate of this court
issued pursuant to Rule 41(a) of the Federal Rules of
Appellate Procedure.
/s/Patricia S. Connor, Clerk

App. 31
FILED: May 6, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 18-7216
(7:17-cv-00119-JLK-RSB)

DAN HAENDEL
Plaintiff - Appellant
v.
ANNA REED, Assistant Commonwealth Attorney
City of Staunton; BB CULLY, Police Officer,
City of Staunton; RAYMOND C. ROBERTSON,
Commonwealth Attorney, City of Staunton;
JIM WILLIAMS, Chief of Police, City of Staunton;
MARK R. HERRING, Attorney General
Commonwealth of Virginia; HOWARD W. CLARKE,
Director Virginia Department of Corrections
Defendants - Appellees

ORDER

The petition for rehearing en banc was circulated
to the full court. No judge requested a poll under Fed.

App. 32
R. App. P. 35. The court denies the petition for rehear­
ing en banc.
For the Court
/s/ Patricia S. Connor. Clerk

App. 33
UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 18-7216
DAN HAENDEL,
Plaintiff - Appellant.
v.
ANNA REED, Assistant Commonwealth Attorney City
of Staunton; BB CULLY, Police Officer, City of Staun­
ton; RAYMOND C. ROBERTSON, Commonwealth At­
torney, City of Staunton; JIM WILLIAMS, Chief of
Police, City of Staunton; MARK R. HERRING, Attor­
ney General Commonwealth of Virginia; HOWARD W.
CLARKE, Director Virginia Department of Correc­
tions,
Defendants - Appellees.
Appeal from the United States District Court for the
Western District of Virginia, at Roanoke. Jackson L.
Kiser, Senior District Judge. 7:17-cv-00119-JLK-RSB)
Submitted: February 28,2019 Decided: March 26,2019
Before KING and FLOYD, Circuit Judges, and
TRAXLER, Senior Circuit Judge.

App. 34

Affirmed by unpublished per curiam opinion.
Dan Haendel, Appellant Pro Se.
Unpublished opinions are not binding precedent in
this circuit.
PER CURIAM:
Dan Haendel appeals the district court’s orders
dismissing without prejudice his 42 U.S.C. § 1983
(2012) complaint and denying his motion for reconsid­
eration. We have reviewed the record and find no re­
versible error. Accordingly, we affirm for the reasons
stated by the district court. Haendel u. Reed, No. 7:17cv-00119-JLK-RSB (W.D. Va. Feb. 13, 2018; Sept. 10,
2018). We dispense with oral argument because the
facts and legal contentions are adequately presented
in the materials before this court and argument would
not aid the decisional process.
AFFIRMED

App. 35
FILED: March 26, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 18-7216
(7:17-cv-00119-JLK-RSB)
DAN HAENDEL
Plaintiff - Appellant
v.
ANNA REED, Assistant Commonwealth Attorney
City of Staunton; BB CULLY, Police Officer,
City of Staunton; RAYMOND C. ROBERTSON,
Commonwealth Attorney, City of Staunton;
JIM WILLIAMS, Chief of Police, City of Staunton;
MARK R. HERRING, Attorney General
Commonwealth of Virginia; HOWARD W. CLARKE,
Director Virginia Department of Corrections
Defendants - Appellees
JUDGMENT
In accordance with the decision of this court, the
judgment of the district court is affirmed.
This judgment shall take effect upon issuance of this
court’s mandate in accordance with Fed. R. App. P. 41.
/s/ PATRICIA S. CONNOR. CLERK

App. 36
APPENDIX I
The Federal Wire and Electronic Communica­
tions Interception and Interception of Oral
Communications Act, 18 U.S.C. Sections 2510
through 2522
The Virginia Interception of Wire, Electronic,
or Oral Communications Act, Va Code Sections
19.2-61 through 19.2-70.3
28 U.S.C. Section 2511
Section 2511. Interception and disclosure of wire, oral,
or electronic communications prohibited
(1) Except as otherwise specifically provided in
this chapter any person who (a) intentionally intercepts, endeavors to inter­
cept, or procures any other person to intercept or en­
deavor to intercept, any wire, oral, or electronic
communication;
(b) intentionally uses, endeavors to use, or pro­
cures any other person to use or endeavor to use any
electronic, mechanical, or other device to intercept any
oral communication when . . .
(c) intentionally discloses, or endeavors to dis­
close, to any other person the contents of any wire, oral,
or electronic communication, knowing or having reason
to know that the information was obtained through the
interception of a wire, oral, or electronic communica­
tion in violation of this subsection; (emphasis added;

App. 37
note that the counterpart Virginia statute de­
letes the “in violation” language)
(d) intentionally uses, or endeavors to use, the
contents of any wire, oral, or electronic communication,
knowing or having reason to know that the infor­
mation was obtained through the interception of a
wire, oral, or electronic communication in violation of
this subsection; or (emphasis added; note that the
counterpart Virginia statute deletes the “in vio­
lation” language)
(e)(i) intentionally discloses, or endeavors to dis­
close, to any other person the contents of any wire, oral,
or electronic communication, intercepted by means
authorized by sections 2511(2)(a)(ii), 2511(2)(b)-(c),
2511(2)(e), 2516, and 2518 of this chapter, (ii) knowing
or having reason to know that the information was
obtained through the interception of such a com­
munication in connection with a criminal investiga­
tion, (iii) having obtained or received the information
in connection with a criminal investigation, and (iv) with
intent to improperly obstruct, impede, or interfere with
a duly authorized criminal investigation,
shall be punished as provided in subsection (4) or shall
be subject to suit as provided in subsection (5).
(2)(c) It shall not be unlawful under this chapter
for a person acting under color of law to intercept a
wire, oral, or electronic communication, where such
person is a party to the communication or one of the
parties to the communication has given prior consent
to such interception. (Emphasis added; note specific

App. 38
exemption for a “person acting under color of law”
in federal statute - no such specific exemption in
Virginia statute - which neutralizes prohibition
of investigative or law enforcement official not
having authority to investigate or prosecute
crimes not listed by means of intercepting elec­
tronic communications)
(d) It shall not be unlawful under this chapter for
a person not acting under color of law to intercept a
wire, oral, or electronic communication where such
person is a party to the communication or where one of
the parties to the communication has given prior con­
sent to such interception unless such communication
is intercepted for the purpose of committing any crim­
inal or tortious act in violation of the Constitution or
laws of the United States or of any State.
(4)(a) Except as provided in paragraph (b) of this
subsection or in subsection (5), whoever violates sub­
section (1) of this section shall be fined under this title
or imprisoned not more than five years, or both.
Virginia Code § 19.2-62. Interception, disclosure, etc.,
of wire, electronic or oral communications unlawful;
penalties; exceptions
A. Except as otherwise specifically provided in
this chapter any person who:
1. Intentionally intercepts, endeavors to intercept
or procures any other person to intercept or endeavor

App. 39
to intercept, any wire, electronic or oral communica­
tion;
2. Intentionally uses, endeavors to use, or pro­
cures any other person to use or endeavor to use any
electronic, mechanical or other device to intercept any
oral communication;
3. Intentionally discloses, or endeavors to disclose,
to any other person the contents of any wire, electronic
or oral communication knowing or having reason to
know that the information was obtained through the
interception of a wire, electronic or oral communica­
tion; of (emphasis added; note absence of “in vio­
lation” language for interception provided in
federal law with only knowledge standard re­
quired for felony violation under Virginia stat­
ute)
4. Intentionally uses, or endeavors to use, the
contents of any wire, electronic or oral communication,
knowing or having reason to know that the infor­
mation was obtained through the interception of a
wire, electronic or oral communication; shall be guilty
of a Class 6 felony, (Emphasis added; note absence
of “in violation” language for interception pro­
vided in federal counterpart statute with only
knowledge standard required for felony viola­
tion under Virginia statute)
2. It shall not be a criminal offense under this chap­
ter for a person to intercept a wire, electronic or oral
communication, where such person is a party to the com­
munication or one of the parties to the communication

App. 40
has given prior consent to such interception. (Virginia
statute does not provide specific exemption for
investigative or law enforcement official to in­
vestigate crimes not listed in Va Code 19.2-66 by
means of interception of electronic communica­
tions thereby making the sting operation unau­
thorized and, therefore, unlawful).
Va Code Section 19.2-61

Definitions

“Electronic communication” means any transfer of
signs, signals, writing, images, sounds, data, or intelli­
gence of any nature transmitted in whole or in part by
a wire, radio, electromagnetic, photoelectronic or photooptical system . . .
“Intercept” means any aural or other means of ac­
quisition of the contents of any wire, electronic or oral
communication through the use of any electronic, me­
chanical or other device;.. .
“Investigative or law-enforcement officer” means
any officer of the United States or of a state or political
subdivision thereof, who is empowered by law to con­
duct investigations of or to make arrests for offenses
enumerated in this chapter, and any attorney author­
ized bv law to prosecute or participate in the prosecu­
tion of such offenses:. . . (emphasis added)
“Oral communication” means any oral communi­
cation uttered by a person exhibiting an expectation
that such communication is not subject to interception

App. 41
under circumstances justifying such expectations but
does not include any electronic communication;. . .
Va Code Section 19.2-66. When Attorney General or
Chief Deputy Attorney General may apply for order
authorizing interception of Communications
A. The Attorney General or Chief Deputy Attorney
General, if the Attorney General so designates in writ­
ing, in any case where the Attorney General is author­
ized by law to prosecute or pursuant to a request in his
official capacity of an attorney for the Commonwealth
in any city or county, may apply to a judge of competent
jurisdiction for an order authorizing the interception
of wire, electronic or oral communications by the De­
partment of State Police, when such interception may
reasonably be expected to provide evidence of the com­
mission of a felonious offense of extortion, bribery, kid­
napping, murder, . . . [lists additional felonies, but
does not list the two offenses charged against
Plaintiff]
Va Code Section 19.2-68
G. The contents of anv intercepted wire, electronic or
oral communication or evidence derived therefrom
shall not be received in evidence or otherwise disclosed
in anv trial, hearing or other proceeding in a state
court unless each party to the communication and to
such proceeding, not less than 10 days before the trial,
hearing or proceeding, has been furnished with a copy
of the court order, accompanying application under
which the interception was authorized and the

App. 42
contents of any intercepted wire, electronic or oral com­
munication that is to be used in any trial, hearing or
other proceeding in a state court. This 10-day period
may be waived by the judge if he finds that it was not
possible to furnish the party with the above infor­
mation 10 days before the trial, hearing or proceeding
and that the party will not be prejudiced by the delay
in receiving such information; provided that such in­
formation in any event shall be given prior to the day
of the trial, and the inability to comply with such 10day period shall be grounds for the granting of a con­
tinuance to either party. (Emphasis added; note
that “any intercepted ... electronic communica­
tion includes interception by a party to the com­
munication pursuant to the exemption for
criminal offense in Va Code Section 19.2-62(B)(2))
H. Any aggrieved person in any trial, hearing or pro­
ceeding in or before any court, department, officer,
agency, regulatory body or other authority of the Com­
monwealth, or a political subdivision thereof, may
move to suppress the contents of any intercepted wire,
electronic or oral communication, or evidence derived
therefrom, on the grounds that:
1. The communication was unlawfully inter­
cepted, or was not intercepted in compliance with this
chapter; or
2. The order of the authorization or approval un­
der which it was intercepted is insufficient on its face;
or

App. 43
3. The interception was not made in conformity
with the order of authorization or approval; or
4. The interception is not admissible into evi­
dence in any trial, proceeding or hearing in a state
court under the applicable rules of evidence.
Such motion shall be made before the trial, hear­
ing or proceeding unless there was no opportunity to
make such motion or the person was not aware of the
grounds of the motion. . . . (Emphasis added)
28 U.S.C.§ 2520. Recovery of civil damages authorized
(a) In general. - Except as provided in section
2511(2)(a)(ii), any person whose wire, oral, or elec­
tronic communication is intercepted, disclosed, or in­
tentionally used in violation of this chapter may in a
civil action recover from the person or entity, other
than the United States, which engaged in that viola­
tion such relief as may be appropriate.
(b) Relief. - In an action under this section, ap­
propriate relief includes (1) such preliminary and other equitable or de­
claratory relief as may be appropriate;
(2) damages under subsection (c) and punitive
damages in appropriate cases; and
(3) a reasonable attorney’s fee and other litiga­
tion costs reasonably incurred.

App. 44
Va Code § 19.2-69. Civil action for unlawful intercep­
tion, disclosure or use
Any person whose wire, electronic or oral commu­
nication is intercepted, disclosed or used in violation of
this chapter shall (i) have a civil cause of action against
any person who intercepts, discloses or uses, or pro­
cures any other person to intercept; disclose or use
such communications, and (ii) be entitled to recover
from any such person:
1. Actual damages but not less than liquidated
damages computed at the rate of $400 a day for each
day of violation or $4,000, whichever is higher, pro­
vided that liquidated damages shall be computed at
the rate of $800 a day for each day of violation or
$8,000, whichever is higher, if the wire, electronic, or
oral communication intercepted, disclosed, or used is
between (i) a husband and wife; (ii) an attorney and
client; (iii) a licensed practitioner of the healing arts
and patient; (iv) a licensed professional counselor, li­
censed clinical social worker, licensed psychologist, or
licensed marriage and family therapist and client; or
(v) clergy member and person seeking spiritual counsel
or advice;
2.

Punitive damages; and

3. A reasonable attorney’s fee and other litiga­
tion costs reasonably incurred.
A good faith reliance on a court order or legislative
authorization shall constitute a complete defense to

App. 46
APPENDIX J
SAMPLES OF
CONSTITUTIONAL ISSUES CITED
“The basis for this is 19.2-62B2, and that does exempt
from criminal prosecution a person who is a party to
the electronic communication. Now, as Mr. Haendel
has noted, there does not seem to be any statutory rec­
onciliation between 62B2 and 19.2-69, which talks
about the civil cause of action. However, I believe the
Supreme Court of Virginia has weighed in in the un­
published decision in Horn v. Clarke ... I find . . . that
because the officer, Mr. Cully, was a party to the com­
munication, that the civil provisions under 19.2-69 do
not apply.” (Tr, pp. 5253)
ASSIGNMENT OF ERRORS; AUTHORITIES AND
ARGUMENTS
A. The Circuit Court erred as to use of Horn v.
Clarke and Plain Language of the Statute
Appellant maintains that by relying solely on the two
ambiguous sentences in Horn v. Clarke, and failing to
consider whether the “no violation” applies only to the
interception as provided by the plain language of Va
Code Section 19.262(B)(2), the Circuit Court did not
properly evaluate the plain words of the underlying
statute cited by this Supreme Court and claims that
the exemption from a criminal offense solely for the in­
tercept of the electronic communication under the Vir­
ginia statute requires a different result. . The two
sentences in Horn v. Clarke relied on by the Circuit

App. 47
Court for its disposition of this case are: “No violation
of the Interception of Wire, Electronic or Oral Commu­
nication Act, Section 19.2-61 through 19.2-70.3 or the
Federal Wire and Electronic Communications Inter­
ception and Interception of Oral Communication Act,
18 U.S.C. Section 2510 through 18 U.S.C. Section 2522,
occurred because the officer
brief, Reed, p. 6) but, as the author of the Common­
wealth’s brief in the criminal appeal before this Court,
Reed misrepresented the case by arguing that Padilla
held the contents of the oral intercept in that case were
admissible when, indeed, it did no such thing. The Pa­
dilla court suppressed the contents of the oral inter­
cept which it held to be permissible. In short, the same
rationale applies in this case. Even if Cully’s intercept
of the electronic intercept was permissible pursuant to
19.2-62(B)(2) despite his not having authority to inves­
tigate such offenses, the use and/or disclosure of the
contents of the intercept absent a court authorization
or approval is inadmissible in any Virginia court.
In Morton v. Commonwealth. 227 Va. 216, 315 S.E.2d
224 (1994), the Virginia Supreme Court relied on
United States v. Campagnuolo. 556 F.2d 1209 (5th Cir.
1997) to hold that intercepted communications of of­
fenses other than those specified in an authorization
order require a subsequent approval by a judge to be
disclosed in a court proceeding. As noted in United
States v. Rabstein. 554 F. 2d 190 (1977) and Gelbard v.
United States. 408 U.S. 41, 92 S. Ct. 2726 (1972), the
restriction in the federal statute on which the Virginia
statute is patterned is to prevent the very “fishing

App. 48
expedition” and circumvention of its provisions Cully
and Reed have perpetrated in this case with this Court
in Wilks v. Commonwealth of Virginia. 217 Va. 885,234
S.E.2d 250 (1977) characterizing the Virginia statute
as more stringent than its federal counterpart.
B. The Circuit Court erred as to its grants of immunity
This case involves a Virginia statute modeled on a fed­
eral statute with interwoven state and federal law and
enacted to prevent the very actions undertaken by Cully
and Reed, with the Virginia [sic] even more explicit than
the federal statute that their actions were outside the
scope of their authority and duties and that they
to investigate crimes not listed under 19.2-66(A) pur­
suant to the definition of “investigative officer” and
“law enforcement official” in 19.2-61.; 2) in the investi­
gative phase of the “investigative officer” and “law en­
forcement official” have no immunity for actions taken
outside the scope of their official authority and duties;
during the prosecutorial phase their commission of
felonies for intentional use and/or disclosure of the
contents of electronic communications they knew or
should have known were from an intercept fulfill the
elements of the felony offenses pursuant to 19.262(A)(2)(3) and/or (4).
Appellees refer to the instant chats as conversa­
tions and recordation. This is not a case involving oral
communications that trigger a privacy expectation
contained in the statutory definition of “oral communi­
cations” pursuant to 19.2-61. This is a case of instant

App. 49
chats found by the U.S. Supreme Court in Reno v.
ACLU to be electronic communication as also clearly
branded by the statute in the definition of “electronic
communication” in 19.2-61 that does not entail a privacy
expectation with privacy expectation incorporated in
the definition of “oral communication,” however. At
least equally significant is the statute’s limiting an in­
vestigative officer’s and law enforcement official’s au­
thority to investigate and/or prosecute by means of an
intercept only those crimes listed in 19.2-66(A). No
matter how Appellees seek to avoid a party to an elec­
tronic communication acquisition of its contents con­
stituting an interception, they fail to do so for the
simple reason that 19.2-62(B)(2) brands it an “inter­
cept” as do numerous cases cited above. By citing that
provision of the statute, Horn v. Clark brands it an in­
tercept and 19.2-68(G) requires any intercept to be
authorized for it to be admitted in evidence in any Vir­
ginia legal proceeding.
Therefore, this Court should apply the plain language
of the statute to hold that where an investigative of­
ficer or law enforcement official take [sic] action at the
investigative phase, they are not entitled to the safe
harbor of the “party to the communication” exception
of 19.2-62(B)(2) because they have no authority pursu­
ant to the definition of their positions to intercept elec­
tronic communications for the investigation of crimes
not listed in 19.2-66(A). Even if this Court allows the
officer and the official the exemption for a “part to the
communication,” it only applies to the interception for
19.2-62(A)(1), but not for 19.2-62(A)(2)(3) and/or (4) for

App. 50
use and/or disclosure at the probable cause, grand jury,
or the adjudication/sentencing hearing. Accordingly,
each of them committed felonies, acted outside the
scope of their authority and duties, and have no im­
munity for their actions in the civil action pursuant to
the remedy embedded in the statute for such actions
by 19.2-69.
The U.S. and Virginia Constitutions guarantee
due process which is violated where the judiciary fails
to adhere to the authorization and approval require­
ments assigned to it by the Virginia legislature to as­
sure the protections provided to Virginia’s citizens by
the statute. The Virginia statute is models [sic] on the
federal statute and where no precedent exists in Vir­
ginia law, Virginia courts have looked to federal prece­
dent. The Virginia Supreme Court has an obligation to
adhere to the plain language of the Virginia statute
and provide for its force and effect, especially to inves­
tigative officers and law enforcements officials who fail
to follow the statutory requirements they know or
should have known.
Accordingly, Appellant respectfully requests that in its
de novo review this Court reverse the Circuit Court’s
ruling on the matters of law, examine the factual
pleadings in the Motion of Judgment - Amended, rule
that they are sufficient to

